TN THE SUPREME COURT OF THE UNTTET! CT4TES

Ml- kltAYIZBB SmTlJ-E\
vs

cmn.w'bimaCourtPROOF OF SERVICE

T-MAWEB iunm-FA

'
h-srehv declare that on thi =
bv supreme c-urt rule 29 I have served the

as required
enclosed motion for leave to
oroceed
fnrma pauperis and petition for writ of national
-cornus on
each par tv ■- o the above oroceeding
or the partv's counsel and on everv other
Person re.ni bred to '-'■=>i q rs rved,bv depositing
an envelope containing the above
a ocuments in the united states
ma ’ 1 nro^erlv addressed to each of
them t >i th
first-class postage Dreoai.d,
or bv dellverv to a third oaruv commercial
carrier for deliverv within 3 calender davs.
The names and addresses of those served are as follows:
clerk of the united states supreme court:One 1st
:re«t ve.Washington,dc 20543
l declare und-= r n^naltv of neriurv that the foregoing is true and
correct.
Executed on

in oronria

persona s'd. iuri.s

